r
(base: 5:18-cv-00113-KGB

Document #: 97-0

Date Filed: 09/05/2019

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
SYLVESTER O. BARBEE
ADC #131311
v.

PLAINTIFF
Case No. 5:18-cv-00113 KGB-JTK

JASON BOYD, et at

DEFENDANTS
ORDER

The Court has reviewed the Proposed Findings and Recommendations submitted by United
States Magistrate Judge Jerome T. Kearney (Dkt. No. 10). Plaintiff Sylvester O. Barbee filed
untimely objections, but the Court will consider them (Dkt. No. 18). After careful consideration
of the Proposed Findings and Recommendations, Mr. Barbee’s objections, and a de novo review
of the record, the Court concludes that the Proposed Findings and Recommendations should be,
and hereby are, approved and adopted in their entirety as this Court’s findings over Mr. Barbee’s
objections (Dkt. No. 18). Accordingly, the Court dismisses with prejudice Mr. Barbee’s claims
against defendants Cheryl Ellis and Aundrea Weekly. Mr. Barbee may proceed with his remaining
claims.
It is so ordered this 5th day of September, 2019.
KAstine G. Baker
United States District Judge

MIME-Version:1.0 To:ared_ecl@localhost.localdomain Message-Id:<8441057@ared.uscouits.gov> SubjectActivity in Case 5:18-cv-00113-KGB Barbee v.
Boyd et al Order Adopting Report and Recommendations Content-Type: text/html
Tiiis is an automatic e-mail message generated by the CM/ECFsystem. Please DO NOT RESPOND to this e-mail because the mail box is
unattended.
*** NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of Arkansas
Notice of Electronic Filing
The following transaction was entered on 12/30/2019 at 11:43 AM CST and filed on 12/30/2019
Case Name:

Barbee v. Boyd et al

Case Number:

5:18-cv-00113-KGB

Filer:
Document Number: 100
Docket Text:
ORDER adopting [94] Proposed Findings and Recommendations; granting [81] Defendants' motion for summary judgment;
denying [92] Mr. Barbee's cross motion for summary judgment; dismissing without prejudice Mr. Barbee's claims against
separate defendant Angelika Smarjesse; dismissing with prejudice Mr. Barbee's claims against separate defendant Jason Boyd;
dismissing without prejudice Mr. Barbee's claims against all Doe defendants; and denying as moot [98],[99] Mr. Barbee's
motions for status. Signed by Judge Kristine G. Baker on 12/30/2019. (jbh)

5:18-cv-00113-KGB Notice has been electronically mailed to:
Renae Ford Hudson

renae.hudson@arkansasag.gov, agcivil@arkansasag.gov, katie.wilson@arkansasag.gov

5:18-cv-00113-KGB Notice has been delivered by other means to:
Sylvester O Barbee
ADC #131311
VARNER SUPERMAX
Arkansas Department of Correction
Post Office Box 600
Grady, AR 71644
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l 095794525 [Date=12/30/2019] [FileNumber=84410550] [61872055ed4a0843976dl 772d92fl 68324943525 lf760c 167509baf792fdf42241
9e69dd7bef427b6f72df6c©9d5fef0b6cb953a22c72f69d7el53a0c369a2e]]

'Case: 5:18-cv-00113-KGB

Document #: 100-0

Date Filed: 12/30/2019

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
SYLVESTER O. BARBEE,
ADC #131311
v.

PLAINTIFF
Case No. 5:18-cv-00113-KGB-JTK

JASON BOYD, et al.

DEFENDANT
ORDER

The Court has received the Proposed Findings and Recommendations submitted by United
States Magistrate Judge Jerome Kearney (Dkt. No. 94). Plaintiff Sylvester O. Barbee filed an
objection to the Proposed Findings and Recommendations (Dkt. No. 96). After a review of the
Proposed Findings and Recommendations and Mr. Barbee’s objections, as well as a de novo
review of the record, the Court adopts the Proposed Findings and Recommendations in their
entirety as this Court’s findings in all respects (Dkt. No. 94). Mr. Barbee’s motions for status are
denied as moot (Dkt. Nos. 98, 99).
In his objection, Mr. Barbee claims in part that, “Judge Kearney has been bias on his
judgments against the plaintiff throughout the whole process.” (Dkt. No. 96, at 2-3). A judge is
presumed to be impartial, and a party challenging that impartiality bears the substantial burden of
proving otherwise. Pope v. Federal Express Corp., 974 F.2d 982,985 (8th Cir. 1992). Mr. Barbee
sets forth no facts to support this claim, and the Court does not find any evidence to suggest that
Judge Kearney was biased in this case. The remainder of Mr. Barbee’s objections restate claims
that he raised in previous filings, which Judge Kearney properly addressed in the Proposed
Findings and Recommendations (Dkt. No. 94). For these reasons, the Court adopts the Proposed
Findings and Recommendations as its findings in all respects.

r
'Case: 5:18-cv-00113-KGB

Document #: 100-0

Date Filed: 12/30/2019

Page 2 of 2

It is therefore ordered that.
1.

Defendants’ motion for summary judgment is granted (Dkt. No. 81);

2.

Mr. Barbee’s cross motion for summary judgment is denied (Dkt. No. 92);

3.

Mr. Barbee’s claims against separate defendant Angelika Smarjesse are dismissed

without prejudice for failure to exhaust;
4.

Mr. Barbee’s claims against separate defendant Jason Boyd are dismissed with

prejudice;
5.

Mr. Barbee’s claims against all Doe defendants are dismissed without prejudice;

6.

Mr. Barbee’s motions for status are denied as moot (Dkt. Nos. 98, 99).

and

It is so ordered this 30th day of December, 2019.

fyshh//lf • fake*—
Kristine G. Baker
United States District Judge

2

r
L

'Case: 5:18-cv-00113-KGB

Document#: 101-0

Date Filed: 12/30/2019

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
PLAINTIFF

SYLVESTER O. BARBEE,
ADC #131311
Case No. 5:18-cv-00113-KGB-JTK

v.

DEFENDANT

JASON BOYD, et al
JUDGMENT

Pursuant to the Order entered on this date and pursuant to this Court’s prior Orders, it is
considered, ordered, and adjudged that plaintiff Sylvester O. Barbee’s complaint is dismissed. The
relief requested is denied.
It is so adjudged this 30th day of December, 2019.

~fy»sbhtjlKristine G. Baker
United States District Judge

r
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1261
/

Sylvester Barbee
Appellant
v.
Jason Boyd, Poultry/Swwine Company Inspector, Cummins Unit, ADC, et al.
Appellees

Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5:18-cv-00113-KGB)
ORDER
Sylvester Barbee’s motion for appointn ent of counsel is hereby ordered ^aken with the
case for consideration by the panel! to which this case is submitted for disposition on the merits.
June 26, 2020

u

*V.

j^Order Entered Under Rule 27A(a)Tj
Clerk, U.S. Court of Appeals, Eighth Circuit. *
/s/ Michael E. Gans

tv,, u w
Vue

io

n

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1261

Sylvester Barbee
Plaintiff - Appellant
v.
Jason Boyd, Poultry/Swine Company Inspector, Cummins Unit, ADC
Defendant - Appellee
Troy Moore, Physician; Cheryl Ellis, Inspector, Cummins Unit, ADC; Aundrea Weekly, Safety
and Sanitation Officer, Cummins Unit, ADC
Defendants
Angelika Smarjessi, Food Preparation & Service Manager, Cummins Unit, ADC
Defendant - Appellee
Doe, 2012 Henhouse Sanitation Inspector
Defendant
Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5:18-cv-OO 113-KGB)
JUDGMENT

Before COLLOTON, GRUENDER, and GRASZ, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
August 07, 2020

r
4

i.

C
L

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

r
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1261
Sylvester Barbee
Appellant
v.
Jason Boyd, Poultry/Swine Company Inspector, Cummins Unit, ADC
Appellee
Troy Moore, Physician, et al.
Angelika Smarjessi, Food Preparation & Service Manager, Cummins Unit, ADC
Appellee
Doe, 2012 Henhouse Sanitation Inspector

Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5:18-cv-OO 113-KGB)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
October 01, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
fsl Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1261
Sylvester Barbee
Appellant
v.
Jason Boyd, Poultry/Swine Company Inspector, Cummins Unit, ADC
Appellee
Troy Moore, Physician, et al.
Angelika Smaijessi, Food Preparation & Service Manager, Cummins Unit, ADC
Appellee
Doe, 2012 Henhouse Sanitation Inspector

Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5:18-cv-00113-KGB)
MANDATE
In accordance with the opinion and judgment of 08/07/2020, and pursuant to the
provisions of Federal Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in
the above-styled matter.
October 08, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

4

* Kc

i^*a*a*w Iwraa
evc.vr^

WxilQjlfvxm ok ^^WAci^Cu.6 L?;tis.

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eaglelon U.S. Courthouse
! 11 South 10th Street. Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Cans
Clerk of Court
July 10, 2020
Mr. Sylvester Barbee
VARNER CORRECTIONAL FACILITY
131311
P.O. Box 600
Grady, AR 71644-0600
RE: 20-1261 Sylvester Barbee v. Jason Boyd, et al
Dear Mr. Barbee:

Please be advised the caption in the above-referenced appeal has been revised. The
parties of Troy Moore, Cheryl Ellis, Aundrea Weekly and Doe are now listed as defendants only
and are not appellees to this appeal.
The new updated caption is enclosed. Please use this new caption on all future
correspondence and pleading with this Court.

Michael E. Gans
Clerk of Court
CMH
Enclosure(s)
cc:

Ms. Renae Ford Hudson
Mr. Jim McCormack
Ms. Rosalyn Lynette Middleton

District Court/Agency Case Number(s): 5:18-cv-00113-KGB

Additional material
from this filing is
available in the
Clerk's Office.

